                               NATIONAL SCIENCE FOUNSrATCaN
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTOR GENERAL




Date:          10/20/97                                                                               11



To:            I97020012

From:

Via:          -special

Re :           Resolution of Case


                                                          at D         r       . emiloyee on NSF
                                                         was using letterhead, which included the
                                                          s private drug prevention program.

I determined that the location of the reception listed in ~ r , e t t ewas   r not a public school.
In addition, I interviewed -nd            he stated that he used the letterhead by mistake and has
not made the same mistake since. In addition, -stated               that he did not use any NSF-
funded resources to promote the drug prevention program.

Because of a lack of evidence to show that this is a recurring problem or that h e r i o n a l l y
benefited, further investigation is not warranted at this time. This case is closed.
